HHS/OIG, Audit - "Review of UMass Memorial Medical Centers Reported
Fiscal Year 2006 Wage Data," (A-01-07-00509)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of UMass Memorial
Medical Centers Reported Fiscal Year 2006 Wage Data," (A-01-07-00509)
January 17, 2008
Complete
Text of Report is available in PDF format (792 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
UMass Memorial Medical Center (the Hospital) did not fully comply
with Medicare requirements for reporting wage data in its FY 2006 Medicare cost
report.  Specifically, the Hospital overstated its wages by $13,408,945 and
139,916 hours.  Our correction of the Hospitals errors decreased the average
hourly wage rate approximately 2 percent.  The errors occurred because the
Hospital did not sufficiently review and reconcile wage data to ensure that all
amounts reported were accurate, supportable, and in compliance with Medicare
requirements.
We recommended that the Hospital (1) submit a revised FY 2006 Medicare cost
report to the fiscal intermediary to correct the wage data overstatements
totaling $13,408,945 and 139,916 hours and (2) implement review and
reconciliation procedures to ensure that the wage data reported in future
Medicare cost reports are accurate, supportable, and in compliance with Medicare
requirements.  The Hospital did not agree with all of our findings.
Nevertheless, the Hospital stated that it would resubmit its Medicare cost
report.